U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                     U.S. Census Bureau

     Census 2010: Delays in Address
   Canvassing Software Development
    and Testing, Help Desk Planning,
   and Field Office Deployment Have
          Increased Operational Risk
                           Final Report OIG-19171
                                    February 2009




 For Public Release


                          Office of Audit and Evaluation
                            Report In Brief
                                        U.S. Department of Commerce Office of Inspector General
                                                             February 2009

                                 U.S. Census Bureau
Why We Did this Review
                                 Census 2010: Delays in Address Canvassing Software
In November 2008 Census
completed modification of
                                 Development and Testing, Help Desk Planning, and Field
the Field Data Collection        Office Deployment Have Increased Operational Risk (OIG-19171)
Automation (FDCA) contract.
Under the modified contract,
                                 What We Found
Census is requiring far fewer    The revised decennial schedule requires delivery of the improved handheld com-
handheld units and has taken     puters to early local census offices by February 3, 2009, so that temporary workers
back responsibility for major    (“listers”) can begin training for the April 6 start of address canvassing. But delays
tasks that had been assigned     in software development and testing over the summer and fall have shortened the
to the contractor, such as       window for delivering field-ready handhelds, training users, and implementing ef-
collecting data for blocks of
                                 fective help desk services. We identified the following areas of concern:
1,000 or more addresses and
providing help desk support.    Potential for unexpected handheld problems. Census missed dates for testing
                                handheld components and the integrated system, and was left with only 8 days for
We assessed the bureau’s        field testing the entire system. This short test period increases the risk that un-
progress in developing and
implementing planned ac-
                                expected problems may surface during the live canvassing operation, which could
tivities for the 2010 decennial affect the productivity of listers and the accuracy of the results. In addition:
address canvassing opera-          1.		 Census eliminated some hydrographic information from map files so that
tion, and identified a number           each region’s maps could fit on a single digital card in the handhelds. But
of issues that increase the             the move leaves listers with fewer reference points to guide them through
potential for problems.                 assignment areas, which might make canvassing more difficult.
                                   2.		 The bureau chose the Automated Listing Mapping Instrument (ALMI) to
Background
                                        list large blocks, because these have been a problem for the handhelds.
The mounting problems with              AMLI handles large data-collection tasks in some nondecennial surveys.
the FDCA contract prompted              But it defines collection areas differently from the handhelds, increasing the
the decision to abandon use             potential for duplicates in a decennial environment, and does not use GPS
of handheld computers for               technology. In decennial field tests, canvassers had difficulty completing cer-
nonresponse follow-up while             tain tasks using ALMI. Modifications to the large block approach based on
keeping them for address                field test results must be finalized soon to ensure the information collected
canvassing--the first major             is accurate and reliable.
operation of the 2010 census.
                                 Short time frame for establishing help desk services. The bureau’s decision in
During address canvassing,       July 2008 to manage help desk support beginning in January 2009 left little time
thousands of temporary de-       to plan for and establish these services by the start of address canvassing. Given
cennial staff will use hand-     the limited handheld testing and the uncertainty of their performance, solid help
held computers to collect        desk services must be in place to field potentially high call volumes and ensure a
addresses and geographic         successful operation.
information to update the
                                 Slow deployment of early local census offices. As of late November 2008,
bureau’s master address file
and digital maps. The bu-
                                 Census had opened only 87 of the 151 early local census offices needed to conduct
reau describes “an accurate,     address canvassing. Despite having deployed 144 offices as of early February 2009,
comprehensive, and timely        the bureau continues to encounter delays with its rollout schedule. However, as a
[address] list” as “one of the   backup, Census will have nearby operational offices handle the canvassing prepa-
best predictors of a success-    rations and workload of those not yet finished. The bureau must ensure the opera-
ful census.” This report is      tional offices have the space and resources to handle the added work.
one of a series responding to    What We Recommended
then-Secretary Gutierrez’s
                                 We made no recommendations because of the little time Census has to complete its
request that OIG review
the bureau’s 2010 census         address canvassing preparations. But we continue to monitor how it (1) finalizes
plans to determine high-risk     its approach to large block canvassing, (2) develops and conducts training for help
areas.                           desk staff, and (3) deploys local census offices while preparing to implement its
                                 contingency plans as necessary.
                                            UNITED STATES DEPARTMENTal" COMMERce
                                            Office of In .. pector Gene,.el
                                            w"""'ng<or> 0 C 20230




February 12.2009


MEMORA:"OUM FOR:              Thomas L. Mesenbourg, Jr.
                              Acting Dire<:tor
                              U,S, Census Bureau


FROM:
                             ~n9·~
                              Assistant Inspector General for Audit and Evaluation

SUBJECT:                      Census 2010: Delays in Address Com'ussing Software
                              Dewlopmem and Tesling, Heip Desk Planning, and Field Offiee
                              Deploymem Haw Increased Operational Risk
                              (Final Report OIG-19171)

This memorandum transmits our final report assessing the risks associated ""ith address
canvassing for the 2010 decennial census, Our review found that delays in software development
and testing, establishing technical help desk support. and completing the deployment of early
local census offices have increased operational risk.

In responding to our draft report. the bUrl:au disagreed with cemin aspects of our findings. In
particular. it did not agree that there were delays in defining requirements. stating that it
delivered a full sct of dress rehearsal address canvassing requirements in 2006. The last chapter
of the report discusses our position regarding the bureau's responsc. which is included in its
entirety in an appendix. With address canvassing scheduled to begin in early April and the large
workload automation problems ha\'e created for the bureau. our report does not make
recommendations or require an action plan. but does identify critical areas that require close
monitoring by both the bureau and the Department.

We appreciate the cooperation and courtesies Census personnel extended to us during our
review. If you would like to discuss this report. please call me at (202) 482-2754.

Attachment

cc: James K. White. Associate Under Secretary for Management. Economics and Statistics
       Administration
    Arnold Jackson. Associate Director for Deeennial Census. U.S. Census Bureau
    Marilia A. Matos. Associate Director for Field Operations, U.S. CeI15U5 BUrl:au
    Adam C. Miller. Cen~U5 Audit Liaison
U.S. Department of Commerce                                                                      Final Report OIG-19171 

Office of Inspector General                                                                               February 2009




                                                         CONTENTS

Introduction ................................................................................................................... 1


Findings ......................................................................................................................... 2


   I.	      Delays in Defining Requirements and Completing Software Development 

            Increase Operational Risks.............................................................................. 2



   II.	     Development of Technical Support Desk Services Is on a Tight Time Line.. 6



   III.	    As Delays in Opening Early Local Census Offices Continue, the Bureau 

            Must Be Ready to Implement Reliable Contingency Plans to Support 

            Address Canvassing ......................................................................................... 7


Summary of Agency Response and OIG Comments .................................................. 10 


Appendix A: Objectives, Scope, and Methodology ...................................................... 11


Appendix B: Full Text of Agency Response ................................................................ 12

U.S. Department of Commerce                                                             Final Report OIG-19171 

Office of Inspector General                                                                      February 2009



                                                  Introduction

The mounting problems with the Field Data Collection Automation (FDCA)
contract, under which the Harris Corporation is developing handheld computers
and related systems for the 2010 Census, prompted the decision, in April 2008, to
abandon use of the handhelds for nonresponse follow-up while keeping them for
address canvassing. In November 2008, the Census Bureau completed modification
of the FDCA contract. Under the modified contract, Census is requiring far fewer
handheld units and has taken back responsibility for major tasks that had been
assigned to Harris, such as collecting data for large blocks1 and providing help desk
support for address canvassing. While the revised plan reduces the overall risk
posed by automation, the reformulated plan has imposed an enormous workload on
the bureau that must be completed in a short period of time, and has created
inherent risks of its own.

This report is one of a series responding to then-Secretary Gutierrez’s request that
the Office of Inspector General review the bureau’s 2010 Census plans to determine
high-risk areas. It discusses issues we believe present the greatest risk to the first
major operation of the 2010 decennial—address canvassing—and require close
monitoring by both the bureau and the Department. Because of the large workload
the revised plan has created for the Census Bureau, our report does not make
recommendations to which the bureau must formally respond but does identify
critical areas in which we intend to follow up.

During address canvassing, thousands of temporary decennial staff, known as
listers, will use handheld computers equipped with Global Positioning System
(GPS) capability to collect addresses and geographic information to update the
bureau’s master address file and digital maps. The bureau describes “an accurate,
comprehensive, and timely [address] list” as “one of the best predictors of a
successful census.” Address canvassing will begin on April 6, 2009, and continue
through July 17, 2009. To conduct this operation, Census will primarily manage 151
early local census offices and employ approximately 140,000 temporary workers. It
will rely on addresses from the updated master address file to mail out household
questionnaires and for other enumeration activities.

We assessed the bureau’s progress in developing and implementing planned
activities for the 2010 decennial address canvassing operation, and identified a
number of issues that increase the potential for problems. (See appendix A for a
discussion of our objectives, scope, and methodology.)




1
    An area bounded by visible features (e.g., roads, rivers) on Census maps containing 1,000 or more addresses.


                                                           1

U.S. Department of Commerce                                                            Final Report OIG-19171 

Office of Inspector General                                                                     February 2009



                                                   Findings

I.	      Delays in Defining Requirements and Completing Software
         Development Increase Operational Risks

In May and June 2007, the Census Bureau conducted a dress rehearsal of address
canvassing in Fayetteville, North Carolina, and Stockton, California, during which
FDCA had serious problems, including handheld crashes and slow response times,
as well as lost data. As part of the revised plan, the bureau and Harris worked to
finalize requirements for the devices, fix bugs, and implement new capabilities. The
decennial schedule requires the improved handheld computer to be delivered to
early local census offices by February 3, 2009, in order to begin training temporary
workers. However, delays in software development and testing against a very tight
schedule have shortened the window for resolving software problems and delivering
field-ready handhelds in time for address canvassing.

A major reason for the FDCA problems has been the bureau’s difficulty in providing
the contractor with complete, correct, and stable requirements. As late as January
2008—nearly 2 years after contract award—Census finally delivered a complete set
of user-validated requirements for the handhelds and supporting infrastructure.
Delays in defining requirements have caused disruptive late-stage changes to
systems and operations, which increase the planning workload and operational risk.
Two notable requirements issues that were recently resolved were a workaround to
accommodate map files that exceed the handheld’s secure digital card capacity and
the approach for handling large collection blocks.

A. Severely compressed time frame for developing and testing software
   increases the likelihood of unexpected problems during the live
   operation.

In June 2008, the bureau published a test plan intended to define and assign
realistic time frames for completing the remaining address canvassing testing
activities in the short time remaining before the start of the operation. The plan
was aggressive: it called for testing of individual and combined handheld and
related systems software functionalities to be completed by July 31, 2008, and
product integration testing to be completed by September 30, 2008, prior to starting
a series of user tests.2 Neither of these milestones was met in part because of delays
in establishing the Harris test environment and integrating bureau subject matter
experts into the testing process. Unit and assembly functionality testing was not
completed until September 15, more than one month after Census’s original

2
 Per the Census Bureau’s 2010 Census Address Canvassing Testing Plan, each functionality (e.g., ability to collect
address information on a handheld computer screen) is unit tested separately, followed by assembly testing of the
entire, interrelated complement of functions. Product integration tests are conducted across multiple systems (e.g.,
handheld computers, operations control system, databases, and external interfaces such as the master address file).


                                                          2

U.S. Department of Commerce                                                         Final Report OIG-19171 

Office of Inspector General                                                                  February 2009



completion date of July 31. The planned 2 months of product integration testing was
compressed into 1 month, completing on October 29 (instead of September 30).
These delays in turn delayed and severely compressed the time available for
operational field testing of the handhelds and the operations control system that
local census offices will use to manage and monitor automated data collection
operations. An 8-day test occurred in Fayetteville from December 5-12.

The field test was particularly important because it was the bureau’s only planned
opportunity to assess the capabilities of the improved handheld computers and
operations control system under actual, albeit limited, decennial conditions prior to
address canvassing. (Testing was only at one site and involved limited field staff
and small work assignments.) We observed the December field test and noted
improved performance of the handhelds and related systems. The bureau had only a
short time remaining before the start of help desk training in late January 2009 to
fix any problems identified during the test or in the analysis of the test data.

Although Harris demonstrated during the 2007 dress rehearsal the ability to
provide software updates to handheld computers via wireless transmissions, any
changes to the final address canvassing training materials should be made prior to
Harris’s scheduled delivery to avoid the burden and cost of producing and delivering
revised training changes to the manuals, electronically or otherwise, to the field
offices. The highly compressed test schedule increases the risk that unexpected
problems may surface during the live address canvassing operation. Census and
Harris intend to provide fixes and workarounds if needed during the operation, but
unanticipated problems could affect the productivity of thousands of listers and the
accuracy of the results. Therefore, as discussed in finding II, a well-trained help
desk staff is critical to ensuring a successful address canvassing operation.

B. Data eliminated from secure digital cards may hamper listers’ attempts
   to locate households.

Census had planned to use 13 versions of the digital card, one for each regional
census center and the Puerto Rico Area Office.3 However, the bureau significantly
underestimated the size of the maps that would reside on the card, finding in some
cases that they exceeded the allocated space on the card by three to six times and
sometimes exceeded the card’s 2 GB capacity.

After having considered several options, the bureau chose the option that it believed
had the least amount of risk, informing us in November that it removed certain
hydrographic information (e.g., dry river beds) from the map files in order to have
one card per region. Each region’s map files are now contained on one card. This

3
 Regional census centers and the Puerto Rico Area Office are set up specifically to manage decennial census
operations.


                                                        3

U.S. Department of Commerce                                    Final Report OIG-19171 

Office of Inspector General                                             February 2009



solution allows handhelds to be moved among early local census offices within a
region if needed to meet production goals. However, it introduces risk: the
eliminated hydrographic information leaves listers with fewer reference points to
guide them through their assignment areas, which might make address canvassing
more difficult. While the handhelds will have GPS to help listers navigate to and
mark housing units on the map, the lack of hydrographic information may confuse
the lister because of discrepancies between the map and what they encounter on the
ground.

C. Approach to canvassing large blocks in lieu of the handhelds has not
   been thoroughly tested in the decennial environment

During dress rehearsal, the handhelds performed poorly when used to list collection
blocks containing over 720 addresses, which required the bureau to assess
alternative collection methods. Although the bureau has worked with Harris to
improve the handheld’s performance, the risk associated with collection blocks
containing 1,000 addresses or more was considered too high based on performance
testing results. As a result, Census decided to use a software program that has been
used in the field since September of 2003.

This program updates addresses for several nondecennial demographic household
surveys conducted regularly by field representatives in Census’s 12 regional offices.
Known as the Automated Listing Mapping Instrument (ALMI), the software runs
on laptop computers and is capable of updating several thousand addresses per
block, but defines collection areas differently from the handhelds:

•	 The handhelds’ collection blocks are defined by visible block borders, such as
   roads or rivers.
•	 The ALMI software uses “tabulation” blocks, which are defined by visible and
   nonvisible boundaries, such as school districts, counties, and state and
   congressional legislative districts.

Unlike the handhelds, ALMI does not have the benefit of GPS technology for
navigating to and identifying where housing units are on the maps.

Bureau officials told us that they have preliminarily identified 2,069 large blocks
nationwide and estimated that each one will take a lister 10 to 20 hours on average
to canvass. Unlike other decennial operations that are managed and operated out of
the regional census center, the ALMI large block collection operation will use the
existing regional office staffing and infrastructure. But because of the effort’s
magnitude and the field representatives’ workloads, the bureau expects the regional
offices will have to hire and train temporary listers to supplement existing staff.
Even so, Census believes that the software and its regional office infrastructure can
reliably support this data collection effort based on its extensive use in the field


                                          4

U.S. Department of Commerce                                                      Final Report OIG-19171 

Office of Inspector General                                                               February 2009



since 2003.

Potential for duplicates. To use ALMI in address canvassing, the bureau had to
associate tabulation blocks with collection blocks, where boundaries may not
correspond with one another. The bureau has acknowledged that doing so creates
the potential for duplicate addresses—a persistent problem in its various efforts to
update the decennial address list.4 In this instance, there will be areas where ALMI
tabulation and handheld collection blocks overlap and will be canvassed by both
ALMI listers and those using handheld computers. These “spillover” areas occur in
locations where new roads have been formed since the Census 2000 tabulation
blocks were created. Census has identified a way to resolve the results of the
duplicative efforts. However, any errors in the resolution process will exacerbate the
problem of address list duplicates.

Limited testing. The bureau’s September 2008 test plan scheduled a field test in
November and December in Fayetteville and Charlotte to assess the software’s
performance, operating procedures, and field procedures for collecting and
transmitting large block data to the bureau’s Geography Division, which is
responsible for updating the maps and master address file. This operational field
test involved 2 bureau field representatives at each location canvassing a total of 7
large blocks. Prior to this test, two other performance tests were conducted earlier
in 2008 – one at Census headquarters involving 2 large blocks and one at three sites
in two states involving 12 large blocks. While Census is confident that ALMI is
reliable, the actions taken by field representatives and the information entered into
the laptop, such as identifying and recording group quarters information, required
some modification of the procedures to adapt it for large block address canvassing
operation.

Operational field test observations. We observed the November operational field
testing. Although experienced field representatives were able to use ALMI to
canvass large blocks, they had some difficulty following the address canvassing
instructions for designating group quarters and took an inordinate amount of time
to insert spots on maps to designate housing unit locations near nonvisible
tabulation block boundaries. Lacking GPS capability, the field representatives rely
on measuring techniques to estimate housing unit locations relative to invisible
boundaries, often a very time-consuming process with an increased risk of
inaccuracy.




4
 U.S. Department of Commerce Office of Inspector General, October 2008, Census 2010: Dress Rehearsal of
Address Canvassing Revealed Persistent Deficiencies in Approach to Updating the Master Address File, OSE-
18599, and September 2007, 2010 Census: Key Challenges to Enumerating American Indian Reservations
Unresolved by 2006 Census Test, OSE-18027, Washington, D.C.: Department of Commerce OIG.


                                                      5

U.S. Department of Commerce                                                    Final Report OIG-19171 

Office of Inspector General                                                             February 2009



Potential for reassigning blocks from FDCA to ALMI during address
canvassing. It is also possible that listers using handheld computers may find in
their assignment areas an unidentified large block that was created as a result of
recent housing construction and new roads that were not captured by mid-decade
map and address updating operations. In this event, listers will work with local
census staff to remove large blocks from FDCA and send them to Census
headquarters, which then assigns them to the regional offices.

The bureau tested the ability of FDCA to identify a block as large and transfer it to
Census headquarters during the address canvassing operational field test in
December. Although the block identified during the test did not contain more than
1,000 addresses, Census reported that headquarters successfully received the block.
Results from both tests will help the bureau finalize its approach for canvassing
large blocks so that it can train its staff properly before this operation begins. Any
problems with canvassing large blocks must be resolved before address information
is collected to ensure the information is accurate and reliable.

II.	    Development of Technical Support Desk Services Is on a Tight Time
        Line

Harris’s efforts to provide adequate help desk support during dress rehearsal were
problematic—response times were slow and answers were inadequate. These
problems, coupled with the high cost Harris proposed for decennial help desk
services, prompted Census to remove this deliverable from the contract. The bureau
will now manage help desk support, beginning in January 2009 through the
remainder of the 2010 decennial. While Harris staff will still be involved, they will
work in a support capacity, rather than as the lead.

Census must have help desk services in place by the start of address canvassing in
April 2009. Having well-trained help desk staff is critical to ensuring a successful
operation, especially given the uncertainty regarding the handhelds’ performance.
Census had managed help desk services during its 2004 field tests and experienced
problems because help desk staff were inadequately trained to support operations.5
Nevertheless, the bureau believes it has the institutional knowledge, experience,
and resources to provide adequate help desk support at a lower cost than the FDCA
contractor. But it has little time to design and implement this capability before
address canvassing.

Census’s Technologies Management Office drafted a plan in September 2008
proposing help desk support at each early local census office to troubleshoot minor

5
 U.S. Department of Commerce Office of Inspector General, September 2004. Improving Our Measure of America:
What the 2004 Census Test Can Teach Us in Planning for the 2010 Decennial Census, OIG-16949-1. Washington,
D.C.: Department of Commerce OIG.


                                                     6

U.S. Department of Commerce                                                          Final Report OIG-19171 

Office of Inspector General                                                                   February 2009



issues involving the handheld computers. Any widespread hardware, software, and
network problems will be resolved by the regional centers, Census headquarters,
and the FDCA contractor.6 As part of the help desk solution, the Technologies
Management Office will operate a trouble ticket system with an information
knowledge base to log, track, and help resolve hardware and software issues at the
local and regional offices. The trouble ticket system and an associated help desk call
routing system were scheduled to be completed in early December 2008; however,
the systems were not included in the operational field test because security testing
and authorization for their use is pending. Census recently told us that a test of its
help desk tools is tentatively planned for February, but details of the test are not
yet available.

Delays in resolving FDCA software problems may require changes to procedures
that could impact help desk staff training, scheduled to begin in late January 2009.
The bureau anticipates sending the training materials to the Government Printing
Office by the end of December 2008. Printing is expected to take approximately 1
month. Changes made to the handheld computers or FDCA procedures as a result of
the December address canvassing field test will require the development of
supplemental training aids. Census plans to use a small business contractor for
developing these supplemental materials.

The bureau is monitoring FDCA software testing and development activities as well
as the results of operational field tests to determine whether the content and
schedule of help desk and lister training will need to change. At the time of our
fieldwork, Census staff told us that it was developing a comprehensive schedule
that identifies training activities and who is responsible for conducting each
activity—either Census or Harris. This is a positive step to ensure accountability for
deliverables and foresee any delays. But the bureau must be ready to implement its
contingency plan to develop supplemental training materials to ensure temporary
workers have the requisite instruction to conduct the operation successfully if
problems arise.

III.	   As Delays in Opening Early Local Census Offices Continue, the
        Bureau Must Be Ready to Implement Reliable Contingency Plans to
        Support Address Canvassing

Census must open 151 early local census offices and hire approximately 140,000
temporary workers to conduct address canvassing. As of November 21, only 87
offices were operational, which leaves those areas still awaiting offices with less
time to prepare for the first live decennial operation.


6
 Calls not immediately answered by the early local census offices will be routed to a help desk support overflow
center.


                                                         7

U.S. Department of Commerce                                    Final Report OIG-19171 

Office of Inspector General                                             February 2009



The process for opening an early local census office requires coordination between
the bureau, the General Services Administration (GSA) and its leasing contractor,
Harris Corporation, and lessors. Census and GSA identify potential office sites
based on established criteria. Once the best available site is selected, GSA enters
into a 2-year lease, which requires the lessor to make certain improvements before
Census accepts the site for use. When the improvements are made, Harris is
responsible for installing telecommunications and IT equipment as well as office
furniture. An office is operational after Census tests and approves Harris’s
equipment installations.

Harris’s local office deployment schedule has been in flux since the decision to
conduct paper-based nonresponse follow-up last April. Back then, Harris
anticipated finishing all local offices by the end of November 2008. But the change
in operations required revisions to the local office design drawings to accommodate
additional equipment, furniture, and network lines. This, in turn, delayed office
improvements required of the lessor and the final work by Harris. Other
circumstances added to the delay: (1) Granting of security clearances for Harris IT
personnel was initially slow, which resulted in the number of initial office
deployments being scaled back. (2) Census told us that it took longer than
anticipated to accept office sites because some lessors had trouble securing
financing to pay for necessary improvements in the current tight credit market.
(3) Harris has taken longer than expected to install telecommunications equipment
because office configurations for such equipment differ in some cases from the
design drawings, and because it has had difficulty coordinating installations with
its telecommunications service provider.

In late September, Harris revised its office deployment projection: the new target
was to have 121 offices completed by the end of November and 18 more completed in
December (with an additional 12 sites unscheduled at the time). By November 21,
Census had leased all but 1 local office. But Harris, having finished its work in only
87 of them, projected completing an additional 45 in December, 18 in January, and
1 in February. In its response to our draft report, the bureau reported having
deployed 144 offices as of February 5, 2009. This leaves 7 offices yet to be deployed
with fewer than two months remaining before the start of address canvassing.

The bureau informed us that, to recover from these delays, Harris has compressed
the installation schedule from approximately 6 weeks to between 2 and 3 weeks per
office. The contractor has enough teams to handle the maximum number of
simultaneous local office installations planned for a single week, which, as of
November 21, 2008, was 22 for the week ending December 5, 2008

Even with increased manpower levels and simultaneous installations, delays have
continued, and opening a majority of offices by year-end will require a sustained
effort. As a contingency, Census staff informed us that they plan to have operational


                                          8

U.S. Department of Commerce                                     Final Report OIG-19171 

Office of Inspector General                                              February 2009



local offices or regional census centers conduct the operations of nearby unfinished
offices until the latter are up and running. Before executing these contingencies,
Census must ensure that the operational offices have the space and resources to
simultaneously handle the operations of a second local office.

Risk Areas Requiring Continuing OIG Oversight

At this writing, Census has fewer than 2 months to complete its preparations for
address canvassing. If the Census Bureau is unable to resolve the issues we have
identified, the success of this critical operation could be jeopardized. We will
therefore continue to closely monitor the bureau’s progress in:

•	 Finalizing the approach for large block data collection (including the production
   schedule, operating procedures, and the hiring and training of temporary
   workers) and processing of the final maps and address lists. This will include the
   bureau’s progress in integrating large block data collection and processing into
   the overall address canvassing operation schedule.

•	 Completing the effort to identify training activities and develop a training
   schedule for technical support services, clearly delineating the responsibilities
   for Census staff and Harris, and disseminate the schedule to all parties
   responsible for those activities. Integration of the training schedule into the
   overall address canvassing operation schedule.

•	 Ensuring that sufficiently trained help desk staff are available at early local
   census offices at the start of address canvassing operations to field potentially
   high call volumes regarding problems with the handhelds or listers’ difficulties
   in using the handhelds.

•	 Deploying the remaining early local census offices and preparing to promptly
   implement contingency plans for continuing operations, as necessary, such as
   recruiting, candidate testing, training activities, and production, for offices
   whose deployment is delayed into 2009.




                                           9

U.S. Department of Commerce                                     Final Report OIG-19171 

Office of Inspector General                                              February 2009



              Summary of Agency Response and OIG Comments

The Census Bureau provided written comments on a draft of this report (see
appendix B). Census agreed with our characterization of difficulties in providing
complete, correct, and stable requirements to Harris Corporation, but stated that
our report implied the bureau did not provide address canvassing requirements
until January 2008. We disagree. What we refer to as being delivered for the first
time in January 2008 are not all requirements, but rather requirements that were
complete and user-validated. Requirements provided to Harris earlier were missing
important information including—as the bureau’s response acknowledges—
requirements for performance (e.g., screen-to-screen transition times and
transmission synchronization times) and capacity (e.g., number of addresses per
block). Despite these omissions, the bureau maintains that it delivered a full set of
dress rehearsal address canvassing requirements in 2006. Not having performance
and capacity requirements early in the development process caused disruptive and
resource intensive late-stage changes.

The bureau believes that the risk involved with delays in early local census office
deployment is no longer relevant because it has deployed 144 of 151 offices as of
February 5, 2009. We acknowledge the bureau’s efforts at having opened nearly all
its local offices and for developing contingency plans to handle potential delays with
future deployments. However, we note that four of the seven offices yet to be
deployed are located in a major metropolitan area within a heavily populated
census region. Therefore, we will continue to monitor developments with the
remaining early local census office deployments.

In addition to these comments, we made minor modifications in our report to
address bureau concerns regarding training materials and late changes
surrounding its decision to use ALMI.




                                          10 

U.S. Department of Commerce                                    Final Report OIG-19171 

Office of Inspector General                                             February 2009 



               Appendix A: Objectives, Scope, and Methodology

Following the Census Bureau’s decision against using handheld computers for
nonresponse follow-up, then-Secretary Gutierrez asked the Office of Inspector
General to review plans for decennial activities, concentrating on cost, schedule,
and performance/quality, and provide timely analysis and recommendations for
decision makers. In response, we held an entrance conference with the bureau in
late June 2008 and began our survey work reviewing 2010 decennial operations for
high-risk areas. Shortly thereafter, we decided to evaluate the risks associated with
the address canvassing operation scheduled for 2009.

To conduct our evaluation we interviewed the bureau’s associate director for
decennial census; the chiefs for budget, technologies management, and
telecommunications; the operation integration team lead for address canvassing
and FDCA project principles; as well as officials overseeing the 2010 census in the
Department’s offices of Budget, Acquisition, and Chief Information Officer.

We reviewed decennial documentation including the integrated program plan, the
operations and systems plan, the program management plan, the master integrated
program schedule, budget plans, and risk registers, as well as the address
canvassing, large block, and operational field test plans. We attended monthly
FDCA program management reviews, observed demonstrations and testing of the
FDCA handhelds and related systems and the ALMI software large block testing, in
addition to visiting two early local census offices, two regional census centers, and
one regional office.

We conducted this review from July to December 2008 in accordance with the
Quality Standards for Inspections (rev. January 2005) issued by the President’s
Council on Integrity and Efficiency, and under authority of the IG Act of 1978, as
amended, and Department Organization Order 10-13 (dated August 31, 2006).




                                         11 

U.S. Department of Commerce                           Final Report OIG-19171 

Office of Inspector General                                    February 2009 



                 Appendix B: Full Text of Agency Response




                                    12 

U.S. Department of Commerce          Final Report OIG-19171 

Office of Inspector General                   February 2009 





                              13 

